No. 20-6745
IN THE SUPREME COURT OF THE UNITED STATES
_________________
DEMETRIUS ELISHAKIM JEFFERSON, PETITIONER
v.
UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the MEMORANDUM FOR THE UNITED STATES IN OPPOSITION, via e-mail and firstclass mail, postage prepaid, this 2nd day of April, 2021.
[See Attached Service List]

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
April 2, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition
to mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief.
If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory Case
Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-6745
JEFFERSON, DEMETRIUS ELISHAKIM
USA

ADAM D. ZENOR
111 EAST GRAND AVENUE
SUITE 400
DES MOINES, IA 50309

